HHS/OIG, Audit - "Review of Quality Improvement Organization in Iowa,"
(A-07-06-01035)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Iowa," (A-07-06-01035)
October 18, 2007
Complete
Text of Report is available in PDF format (657 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that OIG assess the
fiscal integrity of the Medicare Quality Improvement Organizations with respect
to six specified fiscal integrity areas.
Of the $10.3 million of costs reviewed, $9.6 million
appeared reasonable for Federal reimbursement.  Of the remaining costs, the Iowa
Foundation for Medical Care (IFMC) incurred $208,974 of costs that were
unallowable and $530,822 of costs that may not have
complied with Federal requirements.
OIG recommended that IFMC (1) refund $179,358, which includes $145,091 of direct
costs and $34,267 of associated indirect costs, for unallowable food and
equipment; (2) reduce the indirect cost pool by $29,616
for chartered air travel costs incurred by board members; and (3) work with
the CMS contracting officer to determine what portion of the $530,822 incurred
for board member fees, board member travel costs, and executive compensation
during our audit period should be excluded from the indirect cost pool for
purposes of determining final rates.  IFMC disagreed with the recommendations.